                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM


I((
  Case Number: 108020012
                                                                                           Ill           Page 1 of 1



       This investigation involved finding inappropriate material' on an IVSF employee's2 computer
       network drive.l The employee was interviewed and explained that she had mistakenly
       downloaded the inappropriate material. A report of investigation was submitted to the
       appropriate NSF official4 for action. The employee was verbally counseled and was provided
       with a copy of the NSF policy on Personal Use of NSF's Technology and Communication
       ~ e s o u r c e and
                       s ~ advised to adhere to the policy.




       1
           Personal nude photos of employee.
       2

           R drive: Designated network drive assigned to each NSF em~loyeeluserfor individual uselstorage of data and


       ' NSF Bulletin 04-1 1.
                                   NATIONAL SCIENCE FOUNDATION
                                         4201 Wilson Boulevard
                                       ARLINGTON, VIRGINIA 22230




                                             MAR 3 1 2008




                    -
     OFFICE OF
INSPECTOR GENERAL


   Confidential




                    Division of-


       From:        Dr. Peggy Fi'scher, Associate Inspector General for Investigations

  Subject:          Investigative Report (Case # I080200 12)


                                                                                        ctorate of
                                                                                         We have
                                        iolated NSF policies regarding the personal use of NSF's
 communication resources by saving personal photos deemed inappropriate on the NSF computer
 network drive (R drive). During our insrestigation, the employee explained that she had
 mistakenly saved the inappropriate personal photos on her R drive along with her other personal
 photos and not realized it until she was notified by OIG.

 We are referring this matter to you so that appropriate action can be taken by the Foundation.
 Please advise me by April 25, 2008, of the actions taken regarding the recommendations
 contained in our report.



 Attachment

 cc:      Christine C. Boesz, Inspector General
          Kathie L. Olsen, NSF Deputy Director
          James H. Lightbourne, Senior Advisor for the Integration of Research and Education
       National Science Foundation
       Office of Inspector General




                     Confidential
                 Investigation Report
               Case Number 1-08020012
                            3 1 March 2008


This ConfidentialInvestigation Report is the property of the NSF OIG and may be &closed outside
   NSF only by OIG under the Freedom of Information and PrivacyActs, 5 U.S.C. $$552,552a.

                                                                              NSF OIG Form 22b (1 1/06)
                                                        Summary

     This investigation involves a National Science Foundation (NSF) employee1 who acknowledged
     to OIG that her computer network drive (R drivel2 contained personal photos that appear to
     violate current NSF policies. She apologized and explained that she had downloaded personal
     photos onto her R drive and did not realize that certain inappropriate photos were among them.
     The NSF Office of Inspector General (OIG) identified a potential violation of current NSF
     policies.

                                                  OIG Investigation

     OIG identified inappropriate material on the R drive of an NSF employee. OIG completed a
     review of the employee's R drive and identified approximately 48 inappropriate photos, which
     were personal in nature, out of a total of 3,455 personal photos. These photos had dates listed
     between 2006 and 2007.~

    Pursuant to NSF Policy regarding Persorzal Use of NSFJs Technology and Conzrnunication
    Resources contained in NSF Bulletin 04-1 1 ("NSF's Personal Use Policy"), NSF employees are
    authorized to use NSF technology and communication resources for occasional personal use.
    However, this policy creates express limitations on personal use, citing the Federal CIO
    Council's 1999 Model PolicvIGuidance on "Limited Personal Use," ("Model Policy"), for
    examples of inappropriate uses.

    According to Section IV of the Model Policy:

    "Employees are expected to conduct themselves professionally in the workplace and to refrain
    from using govemment office equipment for activities that are inappropriate. Misuse or
    inappropriate use of govemment office equipment includes.. ..Using government office
    equipment for activities that are illegal, inappropriate, or offensive to fellow employees or the
    public.. . and.. . the creation, download, viewing, storage, copying, or transmission of sexually
    explicit or sexually oriented materials."

    Furthermore, according to NSF's IT Security "User Responsibilities-Rules of Behavior", an NSF
    user agrees to comply with the rules, one of which states the following:

           "...I understand that NSF IT resources, including e-mail accounts, are for authorized
           Government use only and in accordance with NSF policy, any activity that would
           discredit NSF, including seeking, transmitting, collecting, or storing defamatory,
           discriminatory, obscene, harassing, or intimidating messages or material is not
           permitted."



I                 Administrative Manager,   0
    The R drive is a designated network drive assigned to each NSF employeeluser for individual
    uselstorage of data and accessible only by the individual employee/use~andlor OIRMIDIS technical staff.
    Photos not submitted with this report but available upon request.
   The employee was interviewed4 by representatives from NSF's Office of Inspector General in
   reference to the photos found on the computer drive. Prior to the interview the OIG provided the
   employee with a Garrity warning5, which the employee read and signed, and was also offered
   the Weingarten Rights but the employee advised that she was not part of a bargaining unit.
   During the interview the employee explained that she had mistakenly saved certain personal
  photos on her R drive and apologized stating that she understood these pho'tos were inappropriate
   at work, and that they violated applicable NSF policies. Specifically, the employee said she was
  familiar with NSF's personal use policy for use of government equipment and has participated in
  the Agency-'~Computer Security rain in^. The employee was offered an opportunity to provide
  a written statement and declined. Following the interview, the employee sent an email to OIG
  stating that she had deleted the inappropriate photos from her R drive.7 OIG verified that the
  inappropriate photos were removed.


                                                     OIG Analysis

 Based on the information contained in this report and the employee's own admission, OIG
 concludes that the employee inadvertently saved inappropriate personal photos on her NSF
 computer R drive. The employee stated that she knew this material was against NSF rules and
 deleted the inappropriate material following her interview with OIG.

                                                  OIG Conclusions

 By downloading and maintaining inappropriate photos on her NSF computer, the employee
 violated NSF's Personal Use Policy by engaging in an inappropriate use expressly cited in the
 Model Policy adopted and incorporated by reference; and NSF's IT Security User
 Responsibilities-Rules of Behavior.


                                             OIG Recommendations

In reference to the conclusions outlined above, we recommend that the National Science
Foundation proceed with administrative actions that are appropriate and consistent with previous
similar incidents.




 Tab #1 - Memorandum of Investig                                          dated February 26, 2008.
' Tab #2 - Garrity Warning signed b j                                    vised the subject that she did not
 have to reveal information that mig         inate her (i.e. result in a criminal action against her).
 Tab #3 - Email c                 that employee completed Computer Security Training.
 Tab #4 - Email se               ated February 26, 2008.
                                                                                                                                   Page 1 of 1

      Amores, Anna E.
      -     ---__A-_._-_._.________.______                                _-L               _-   -


      From:       Fischer, Peggy L.
      Sent:       Wednesday, April 02, 2008 10:22 AM
      To:                                          (OIG)
      Subject: FW: NSF Bulletin 04-1 1



                                                                                ..,.. ...            -,-                             --
                                                                                                        ..--.------.------..-----.mu..    -   --
     From: I---
     Sent: Wednesday, April 02, 2008 10:16 AM
     To: Fischer, Peggy L.
. : cc
     Subject: FW: NSF Bulletin 04-11




  o
  m
  .F
   r:
   Sent: Wednesday,   .
                 , . Aeril02, 2008 10:i5 AM


   Subject: NSF Bulletin 04-11



  The note is to confirm our conversation this morning regarding NSF's policy on Personal Use of NSF's Technology and
  Communication Resources (NSF Bulletin 04-1 1) and your receipt of a copy of this policy. I expect you to comply with the policy in
  future.

  Sincerely,



  National Science Foundation
                                             ~p
